                                                                             Report No. DODIG-2014-102



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              AUGUST 29, 2014




                     Government of the
                     Islamic Republic of Afghanistan
                     Needs to Provide Better
                     Accountability and Transparency
                     Over Direct Contributions




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Government of the Islamic Republic of Afghanistan Needs
                                to Provide Better Accountability and Transparency Over
                                Direct Contributions

August 29, 2014                                    Findings (cont’d)

Objective                                          This occurred because GIRoA did not develop the ministerial
                                                   capability and capacity to manage and oversee ASFF direct
Our objective was to determine whether             contributions and Combined Security Transition Command–
the Government of the Islamic Republic             Afghanistan (CSTC-A) had not held GIRoA accountable for not
of Afghanistan’s (GIRoA) Ministries of             implementing controls and improper handling of ASFF direct
Defense (MoD) and Interior (MoI) have              contribution funds.
controls in place to ensure a transparent and
accountable fiscal process for the direct          As a result, CSTC-A could not verify that GIRoA used
funding provided for the sustainment of the        ASFF direct contributions properly or for their intended
Afghan National Security Force (ANSF).             purposes. In addition, the $13 billion in additional
                                                   direct contributions DoD plans to provide to the ANSF between
Findings                                           FY 2015 and FY 2019 may be subject to wasteful spending
GIRoA lacked the basic controls to provide         and abuse.
reasonable assurance that it appropriately
spent $3.3 billion of ASFF direct contributions.   Recommendations
These controls are key aspects of a transparent    We recommend that CSTC-A:
and accountable fiscal process. Specifically,
                                                      •	 improve its commitment letters with the MoD and MoI by
   •	 Ministry of Finance (MoF) could not                requiring GIRoA to modify how it accounts for and reports
      provide a current cash balance for direct          its use of ASFF direct contributions,
      contributions or account for currency
      gains of at least $110.4 million made on        •	 distribute ASFF direct contributions to GIRoA in afghani
      Afghanistan Security Forces Fund (ASFF)            instead of U.S. dollars,
      direct contributions.
                                                      •	 coordinate with GIRoA to develop capacities within MoD and
   •	 MoF could not provide support for                  MoI to address identified weaknesses in the ANSF payroll
      $17.4 million and MoI could not                    process and MoD and MoI’s expenditure process for ASFF
      support $9.9 million withheld from                 direct contributions, and
      ANSF salaries.
                                                      •	 withhold future ASFF direct contributions if GIRoA does
   •	 MoD and MoI controls over the payroll              not correct the conditions identified or document the
      process were not adequate.                         reasons for not withholding future contributions.

   •	 MoI processed $40 million in payroll         Management Comments and Our
      payments that appeared improper.
                                                   Response
   •	 MoD and MoI incorrectly charged
                                                   Comments from the Commander, CSTC-A, addressed all of the
      $82.7 million of ASFF direct contribution
                                                   specifics of the recommendations, and no further action is required.
      funds.
                                                   Please see the Recommendations Table on the next page.


Visit us at www.dodig.mil                                               DODIG-2014-102 (Project No. D2014-D000FS-0088.000) │ i
           Recommendations Table
                                                          Recommendations        No additional
                                  Management              Requiring Comment    Comments Required
                                                                              1.a, 1.b, 1.c, 1.d, 1.e.1,
             Commander, Combined Security Transition                          1.e.2, 1.e.3, 1.e.4,
             Command-Afghanistan                                              1.e.5, 1.f.1, 1.f.2, 1.f.3,
                                                                              1.g.1, 1.g.2




ii │ DODIG-2014-102 (Project No. D2014-D000FS-0088.000)
                                  INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500


                                                                                 August 29, 2014

MEMORANDUM FOR UNDER SECRETRY OF DEFENSE FOR POLICY
	              UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
	                FINANCIAL OFFICER, DOD
	              COMMANDER, U.S. CENTRAL COMMAND
	              COMMANDER, U.S. FORCES-AFGHANISTAN
	              COMMANDER, U.S. COMBINED SECURITY TRANSTION
	                COMMAND-AFGHANISTAN
	              DIRECTOR, JOINT STAFF

SUBJECT:	 Government of the Islamic Republic of Afghanistan Needs to
	         Provide Better Accountability and Transparency Over Afghanistan
	         Security Forces Fund Direct Contributions
	         (DODIG-2014-102)

We are providing this report for your information and use. The Government of the Islamic Republic
of Afghanistan lacked the basic controls to provide reasonable assurance that it appropriately
spent $3.3 billion of Afghanistan Security Forces Fund direct contributions. As a result,
Combined Security Transition Command-Afghanistan could not verify that the Government
of the Islamic Republic of Afghanistan used ASFF direct contributions properly or for their
intended purposes.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from the
Commander, Combined Security Transition Command-Afghanistan addressed all the specifics of
the recommendations, and we do not require additional comments.

We appreciate the courtesies extended to the staff.         Please direct questions to me at
(216) 256-3762 (DSN 664-3762).




	                                               Lorin T. Venable, CPA
	                                               Assistant Inspector General
	                                               Financial Management and Reporting




                                                                                           DODIG-2014-102 │ iii
Contents
Introduction
Objective__________________________________________________________________________________________1
Background_______________________________________________________________________________________1
Review of Internal Controls_____________________________________________________________________4

Finding. GIRoA Needs to Provide Better Accountability
and Transparency Over Afghanistan Security Forces
Fund Direct Contributions_____________________________________________________5
Ministry of Finance Cash Balances of Afghanistan Security Forces Fund Direct
   Contributions Funds and Exchange Gains Were Not Transparent ______________________6
Lack of Accounting for Pension and Police Payroll Withholdings____________________________9
Ministry of Defense and Ministry of Interior Weaknesses in Payroll Process_____________ 11
Potential Improper Payroll Payments________________________________________________________ 13
Afghanistan Security Forces Fund Direct Contributions Used for
   Unauthorized Expenditures______________________________________________________________ 14
Conclusion______________________________________________________________________________________ 17
Recommendations, Management Comments, and Our Response _________________________ 18

Appendixes
Appendix A. Scope and Methodology _ ______________________________________________________ 26
    Use of Computer-Processed Data_ _______________________________________________________ 27
    Use of Technical Assistance_______________________________________________________________ 27
    Prior Coverage_____________________________________________________________________________ 27
Appendix B. Ministry of Defense and Ministry of Interior Unauthorized Budget
   Code Charges______________________________________________________________________________ 29

Management Comments
Combined Security Transition Command-Afghanistan_____________________________________ 31

Acronyms and Abbreviations______________________________________________ 37




                                                                                                       DODIG-2014-102 │ v
                                                                                                                                        Introduction




Introduction
Objective
Our overall objective was to determine whether the Government of the Islamic
Republic of Afghanistan’s (GIRoA) Ministries of Defense and Interior (MoD and MoI)
have controls in place to ensure a transparent and accountable fiscal process for the
direct funding provided for the sustainment of the Afghan National Security Force
(ANSF).1 See Appendix A for a discussion of the scope and methodology.


Background
In a February 4, 2011, policy memorandum, the Office of the Under Secretary of
Defense         [Comptroller]/Chief               Financial        Officer      (OUSD[C]/CFO)              authorized          the
Combined Security Transition Command-Afghanistan (CSTC-A) to provide Afghanistan
Security Forces Fund (ASFF) resources to sustain the ANSF directly to the Afghanistan
ministries. The OUSD[C]/CFO and CSTC-A goal was to develop ministerial capability
and capacity in the areas of budget development and execution, payment of
salaries,        acquisition         planning,        and       procurement.               DoD       provides         quarterly
disbursements of ASFF funds to the MoF based on MoD and MoI historical
performance and projections.                         CSTC-A documents overpayments and considers
them when developing ASFF subsequent advances.                                        DoD provided approximately
$3.3 billion in ASFF direct contributions from October 2010 through October 2013
and expects to contribute an additional $13 billion between FY 2015 and FY 2019.
DoD also contributes ASFF funds directly to the Law and Order Trust Fund for
Afghanistan (LOTFA) through the United Nations.


Roles and Responsibilities
Office of the Under Secretary of Defense [Comptroller]/Chief Financial Officer.
The OUSD[C]/CFO’s responsibility is to ensure that ASFF direct contributions to
the Afghanistan ministries are properly budgeted and consistent with the purpose
and availability of the ASFF. In addition, OUSD[C]/CFO must coordinate and notify
Congress, Department of State, and the Office of the Management and Budget on the
planned uses of ASFF direct contributions, consistent with legislative requirements.




	1	
       Refers to the collective efforts of the Afghan National Army and Afghan National Police, including the Afghan Local Police,
      to provide security for Afghanistan.




                                                                                                                                     DODIG-2014-102 │ 1
Introduction



                 Combined Security Transition Command-Afghanistan.                                           CSTC-A is the lead U.S.
                 agency responsible for ANSF development and directs all U.S. efforts to organize,
                 train, and equip the ANSF. CSTC-A is responsible for providing oversight and ensuring
                 adequate fiscal controls are in place to safeguard appropriated ASFF direct contributions
                 provided to the Afghanistan Ministries. CSTC-A must also develop metrics to show
                 the impact of direct contributions and maintain auditable records of disbursements
                 and supporting documentation. CSTC-A is to provide trained staff to partner with the
                 MoF, MoD, and MoI to ensure desired effects are achieved in the areas of budgeting,
                 acquisition planning, procurement, financial management, and contract management
                 and oversight. Finally, CSTC-A must ensure MoF, MoD, and MoI establish standard
                 operating procedures and maintain adequate fiscal controls and auditable records to
                 oversee ASFF direct contributions.

                 The Afghanistan Ministry of Finance. The Afghanistan MoF is responsible for the
                 receipt, accounting, and expenditure of ASFF direct contributions from DoD.                                                 The
                 MoF is the Chief Financial Officer of the GIRoA and has primary responsibility of
                 financial operations. The MoF departments dealing with ASFF direct contributions
                 are the Revenue, Treasury and Budget, and the 34 provincial Mustofiats.2                                                    The
                 Treasury Department within MoF is responsible for GIRoA payments, completion of                           3


                 accounting functions including recording of transactions, and financial reporting. The
                 Treasury Department also provides instructions for the setup and maintenance of
                 official bank accounts and payment procedures within the Treasury Single Account
                 (TSA).4 The Treasury Department defines the TSA structure of accounts and ensures
                 necessary cooperation from the Da Afghanistan Bank (DAB)5 for opening and closing
                 bank accounts.

                 The Afghanistan Ministries of Defense and Interior. The Afghanistan MoD and MoI
                 are responsible for developing, validating, and justifying requirements for their annual
                 budget to include the use of ASFF direct contributions. The primary responsibilities of
                 the MoD and MoI are for the management of the Afghan National Army and the Afghan
                 National Police respectively. The ministries must also design and implement internal
                 controls to ensure that the ASFF direct contributions are used as intended. MoD and


                 	2	
                     Mustofiats provide most of the same services as the MoF, but at the provincial and district levels. They are primarily
                     charged with controlling, accounting, and reporting financial transactions from the provincial and district levels within MoF.
                 	3	
                     Treasury Department or Mustofiats process payments using official bank accounts held at DAB.
                 	4	
                     The TSA is the official bank account in the Da Afghanistan Bank or any other financial institution designed and controlled by
                     the MoF to centralize public money and other receipts held in trust and to manage authorize payments.
                 	5	
                     DAB is the central bank of Afghanistan and is responsible for maintaining all official bank accounts of the GIRoA based on
                     instructions received from the Treasury for the disbursement and transfer of funds. DAB also administers the GIRoA TSA.




2 │ DODIG-2014-102
                                                                                                                                       Introduction



MoI are required to build the capacity and capability to oversee the commitment,
obligation, and expenditure of ASFF direct contributions, to include the development
and maintenance of supporting documentation.

The United Nations Development Programme. The United Nations Development
Programme established LOTFA in 2002 to enable the international community to
strengthen Afghanistan’s law enforcement.  LOTFA supports police salaries and police
infrastructure of the Afghan National Police.  LOTFA works with the MoI to determine
the Afghan National Police budget and then works with the international community,
including the United States, to obtain funding.  According to the United Nations
Development Programme, the international community provided about $3.3 billion
in funding for LOTFA for the Afghan National Police6 between 2002 and 2014.7  The
United States contributed about $1.3 billion to LOTFA during the same time.


Afghanistan Financial Management Information System
The GIRoA Accounting Information System is a fund8-based centralized system
managed and operated through a centralized financial management application
called the Afghanistan Financial Management Information System (AFMIS).                                                 GIRoA
uses AFMIS to record accounting transactions executed by MoD and MoI. MoF uses
cash-based accounting with double-entry transactions managed in AFMIS.                                                     MoF
Treasury and its provincial offices in the Mustofiats are responsible for overall
accounting.         MoF only records revenues when cash is received and expenditures
when cash is paid.                 MoF must match all accounting records of revenues and
expenses to bank statements because cash-based accounting is directly linked with
cash transactions. If the records do not match, either MoF recorded a transaction
incorrectly, or the requested bank transfer had not been made.


Bilateral Financial Commitment Letters
CSTC-A and GIRoA signed annual agreements called Bilateral Financial Commitment
Letters (commitment letters) that commit CSTC-A to fund specified portions of
the MoD and MoI budget.                     Under international law, these commitment letters do
not bind CSTC-A and GIRoA. The commitment letters serve as bilateral agreements
between CSTC-A and GIRoA and are intended to assist GIRoA in implementing

	6	
    LOTFA provides funding for Afghan National Police, but that funding does not support the Afghan Local Police.
	7	
    Amount contributed as of February 2014.
	8	
    Per Islamic Republic of Afghanistan Ministry of Finance Treasury General Directorate, Accounting Manual, Ver. 1.26, “a
    fund is a self‐balancing set of accounts, segregated for specific purposes in accordance with laws and regulations or special
    restrictions and limitations.”




                                                                                                                                    DODIG-2014-102 │ 3
Introduction



                 the necessary oversight and controls to satisfy auditors and the international
                 community.     In addition, the commitment letters establish the responsibilities for
                 all parties that sign the commitment letter. The commitment letters also establish
                 that any unexecuted ASFF direct contributions at the end of the fiscal year are
                 placed back into the CSTC-A holding account with DAB and used for future expenses.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls.                The GIRoA is not
                 required to adhere to U.S. or DoD policies and procedures when accounting for
                 the ASFF direct contributions received from DoD. Therefore, we used the following
                 guidance as a benchmark to determine whether GIRoA had controls to ensure
                 a transparent and accountable fiscal process for the direct funding provided by
                 the DoD for the sustainment of the ANSF.

                            •	 U.S. Government Accountability Office, “Internal Control Management
                              and Evaluation Tool,” August 2001.         The tool presents five sections
                              corresponding to the five standards for internal control:                  control
                              environment,    risk   assessment,    control      activities,   information   and
                              communications, and monitoring.          Each section contains a list of
                              major factors considered when reviewing internal control as it relates
                              to the particular standard.

                            •	 Committee of Sponsoring Organizations of the Treadway Commission
                              “Internal Control−Integrated Framework,” May 2013.                  The “Internal
                              Control−Integrated Framework” is recognized as a leading framework
                              for designing, implementing, and conducting internal control and
                              assessing the effectiveness of internal control.

                 We identified internal control weaknesses related to the operations, reporting,
                 and compliance functions for the sustainment of the ANSF.                       Specifically, we
                 identified internal control weaknesses related to the transparency and accountability
                 of ASFF direct contributions, potential improper and duplicate payroll payment
                 processing, overall ANSF payroll processing, and unauthorized and overspending
                 of budget authority.      We will provide a copy of the final report to the senior
                 officials responsible for internal controls at CSTC-A and the Afghanistan MoF, MoD,
                 and MoI.



4 │ DODIG-2014-102
                                                                                                                                               Finding




Finding
GIRoA Needs to Provide Better Accountability and
Transparency Over ASFF Direct Contributions

GIRoA lacked the basic controls to provide reasonable assurance that it appropriately
spent $3.3 billion of ASFF direct contributions. These controls are key aspects of a
transparent and accountable fiscal process. Specifically,

                •	 MoF could not provide a cash balance for ASFF direct contributions
                    provided by CSTC-A. In addition, the MoF could not show how it used
                    currency exchange gains made on transfers of ASFF direct contributions
                    of at least $110.4 million.                     This occurred because MoF combined the
                    ASFF direct contributions with all other GIRoA revenue sources and
                    changed the fund codes from CSTC-A contributions to GIRoA revenue
                    when DoD provided the funds.                             In addition, CSTC-A did not identify
                    in the commitment letters how MoF should account for ASFF
                    direct contributions.

                •	 MoF officials could not provide support for $17.4  million in pension
                    withholdings from ANSF employees’ salaries.                                  In addition, MoI officials
                    could not account for $9.9  million in police cooperative association
                    funds withheld during Afghanistan FYs 13919 and 139210. This occurred
                    because MoF and MoI did not develop processes for or account for
                    withholdings in a manner that provided an audit trail for pension and
                    police cooperative funds withholdings.

                •	 MoD and MoI did not have adequate controls in place over the payroll
                    process to ensure that they used ASFF direct contributions as intended
                    and paid ANSF salaries appropriately. This occurred because MoD and
                    MoI lacked the capacity11 to develop and implement controls over the
                    payroll process.




	9	
       The Afghan FY 1391 represents the period between March 21, 2012, through December 20, 2012.
	10	
       The Afghan FY 1392 represents the period between December 21, 2012, through December 20, 2013.
	11	
       Capacity is the ability to perform a function. As it relates to our audit, a lack of capacity is defined as GIRoA’s lack of:
       information system development, availability, and interfaces; trained personnel; infrastructure; and monetary and
       personnel resources.




                                                                                                                                      DODIG-2014-102 │ 5
Finding



                         •	 MoI processed 4,579 transactions totaling $40  million in payroll
                            payments that were potentially improper.      This occurred because MoI
                            had not developed procedures to identify potential improper payroll
                            payments such as duplicate payments.

                         •	 MoD and MoI spent $82.7 million of ASFF direct contribution funds
                            for unauthorized expenditures in FY 1392.      For example, ASFF direct
                            contributions were charged for land purchases and allowances paid to
                            uniformed employees for earning diplomas, licenses, or special skills.
                            This occurred because MoD and MoI did not have an adequate funds
                            certification process that ensured funds were available before they
                            were spent.

                 In addition, these conditions occurred because CSTC-A had not previously held
                 GIRoA financially accountable for not implementing controls and for improper
                 handling of ASFF direct contribution funds.   As a result of these internal control
                 weaknesses, CSTC-A could not verify that the ASFF direct contributions were
                 properly spent or used for their intended purposes. In addition, the $13 billion in
                 direct contributions that DoD plans to provide to the ANSF between FY 2015 and
                 FY 2019 may be subject to wasteful spending and abuse.


                 MoF Cash Balances of ASFF Direct Contributions Funds
                 and Exchange Gains Were Not Transparent
                 MoF could not provide the cash balance of DoD direct contributions that were
                 available in the MoF TSA or account for the use of currency exchange rate gains
                 of at least $110.4 million during FY 1392.


                 MoF Could Not Provide ASFF Direct Contributions
                 Cash Balance
                 MoF could not provide the cash balance of ASFF direct contributions that were
                 deposited in the MoF TSA.      During FY 1392, DoD provided $1.5  billion in ASFF
                 direct contributions to MoF, which were held in the TSA. DoD deposited the ASFF
                 contributions into two separate accounts in U.S. dollars.     DoD deposited funds
                 designated for the MoD directly into the TSA and deposited funds designated for MoI
                 into a specific MoI account. However, MoF immediately transferred the MoI funds
                 into the TSA.   When MoF transferred the funds to the TSA, MoD, MoI, and DoD
                 lost visibility of the funds, making it impossible to differentiate other GIRoA
                 revenue or contributions from ASFF direct contributions.      In addition, MoF was




6 │ DODIG-2014-102
                                                                                                                             Finding



unable to provide separate cash balances for ASFF direct contributions reconciled
back to accounting records and balances.                                   As a result of the use of the
TSA, CSTC-A could not verify that the ASFF direct contributions were used for
their intended purposes as defined by the commitment letters.


MoF Could Not Account For Currency Exchange Gains
MoF could not account for at least $110.4 million in foreign currency exchange gains
resulting from the conversion of ASFF direct contributions to afghanis12 for FY 1392.
MoF held the funds in the TSA account in U.S. dollars and exchanged the
contributions into afghanis at the daily spot exchange rate13 when MoD and MoI
submitted expenditures to the MoF for payment.14                                       CSTC-A based ASFF direct
contributions on a fixed exchange rate that was prescribed within the commitment
letter for each fiscal year.                During FY 1392, the afghani depreciated 11.6 percent
of its value compared to the U.S. dollar.                          This depreciation means that for every
U.S. dollar MoF exchanged, more afghanis were generated, creating a gain in
currency for the GIRoA.                  After several requests for supporting documentation to
show the exchange gains that GIRoA realized on DoD direct
contributions, MoF did not provide any information
detailing the exchange gains.                         We analyzed the                           MoF could
                                                                                             not account for
approximate currency exchange rate gains MoF                                             at least $110.4 million
made on DoD FY 1392 direct contributions for                                               in foreign currency
the operations of the MoD and MoI. Based on the                                         exchange gains resulting
                                                                                         from the conversion of
exchange rate in the commitment letter and the
                                                                                        ASFF direct contributions
daily spot rate of ASFF direct contribution deposits,                                        to afghanis for
our     calculations         determined           MoF       had      realized                    FY 1392.
exchange rate gains of at least $110.4  million in
FY  1392.         See Table 1 for full results of the currency
gain analysis.




	12	
     The afghani is the official currency of GIRoA.
	13	
     The foreign exchange rate at the time currencies are traded.
	14	
     MoF officials stated that U.S. dollar to afghani exchanges occur approximately 12 times a year.




                                                                                                                    DODIG-2014-102 │ 7
Finding



                 Table 1. FY 1392 GIRoA Currency Gains on ASFF Direct Contributions (in thousands)
                                           Contribution         Contribution                              Actual             Currency         Currency
                       Date of                                                        Daily Spot
                                            Amount In             Amount                                  Afghani              Gain          Gain (In U.S.
                     Contribution                                                       Rate
                                           U.S. Dollars           Afghani*                              Contribution         Afghani          Dollars)**
                     12/13/2012               $204,562           10,600,403           $1 / 52.20         10,678,136             77,734               $1,489
                     12/20/2012                   2,788              144,474          $1 / 52.24             145,645             1,171                  22
                     4/15/2013                 185,256             9,599,966          $1 / 54.62         10,118,683           518,717                 9,497
                     8/23/2013                 576,360           29,866,975           $1 / 56.54         32,587,394         2,720,419                48,115
                     9/11/2013                 161,262             8,356,597          $1 / 56.71           9,145,168          788,571                13,905
                     10/9/2013                 251,699           13,043,042           $1 / 57.27         14,414,802         1,371,760                23,953
                     10/11/2013                100,000             5,182,000          $1 / 57.12           5,712,000          530,000                 9,279
                     10/16/2013                   8,764              454,150          $1 / 57.17             501,038            46,887                 820
                     10/21/2013                  21,092            1,092,987          $1 / 57.06           1,203,510          110,522                 1,937
                     10/28/2013                  14,383              745,327          $1 / 57.20             822,708            77,381                1,353
                      Total                $1,526,164                                                                                          $110,370

                 *  Amount calculated by multiplying the contribution dollar amount by the commitment letter
                    exchange rate of $1/51.82 afghani.
                 ** Amount calculated by dividing the currency gain in afghani by the daily spot rate.

                 Source: The audit team pulled the DoD contribution amounts for ANSF and dates from the Electronic
                 Document Access System. The audit team gathered spot rate information from OANDA.com.



                 MoF did not consider the exchange gains as additional ASFF direct contributions or
                 provide supporting documentation to demonstrate how they accounted for and used
                 these gains. As a result, CSTC-A did not realize that there were gains being made
                 on ASFF contributions and did not conduct oversight of these additional funds.
                 In addition, revenues created from ASFF direct contribution exchange transactions
                 could have been used to support other operations of the Afghanistan Government,
                 which would likely not be in support of the ANSF missions.


                 Visibility Needed Over ASFF Direct Contributions and Currency
                 Exchange Gains
                 MoF could not provide the cash balance of remaining ASFF direct contributions
                 and did not account for the use of currency exchange gains because MoF combined
                 those contributions and gains with all GIRoA revenue sources.                                                  In addition,
                 MoF changed the fund codes15 within AFMIS from ASFF direct contributions to
                 GIRoA revenues codes when funds were received.                                     If MoF kept the original MoD

                 	15	
                        Fund-code is the five-digit code that identifies the source of the funds. The GIRoA revenue fund code is 10000, the CSTC-A
                        MoD fund code is 10004, and the CSTC-A MoI fund code is 10005. All MoD and MoI ANSF revenue contributions were
                        changed to fund code 10000 in AFMIS.



8 │ DODIG-2014-102
                                                                                                                                           Finding



and MoI fund codes, CSTC-A could monitor the account balances for contributions.
CSTC-A could also monitor the balance of funds provided and transferred into
the TSA, the gains made on currency exchanges, and ASFF direct contributions
expenditures and remaining balances.                               MoF officials stated that AFMIS and
personnel lack the capacity to perform fund accounting; however, their accounting
system is a fund-based system.                         The commitment letters with GIRoA did not
require bank statements documenting ASFF direct contributions and did not
contain language on how GIRoA should account for ASFF direct contributions
and treat currency gains and losses on ASFF direct contributions. CSTC-A should
include requirements in the commitment letters that GIRoA account for ASFF direct
contributions in separate Treasury accounts and provide monthly bank statements
showing ASFF direct contribution cash balances. In addition, CSTC-A should work
with Defense Finance and Accounting Service to develop a process to provide
afghanis to the MoF rather than U.S. dollars to mitigate the risk that gains on
ASFF direct contributions are used for purposes other than intended by DoD.


Lack of Accounting for Pension and Police
Payroll Withholdings
MoF officials could not support an estimated $17.4  million16 in pension withholdings
that they withheld from ANSF employee salaries in FY 1392.                                           In addition, MoF
did not provide AFMIS support that showed ANSF pensioners were ever actually
paid. GIRoA has a 5 percent pension withholding on ANSF salaries to pay
pension benefits.              MoF officials stated pension withholdings were recognized
as revenue in AFMIS.                     We made multiple requests for documentation that
supported the ANSF pension process for FY 1392. However, MoF officials
did not provide documentation to support that they processed $17.4 million
for ANSF pensions or that pension withholdings were being recognized as
revenue.         MoF officials also did not provide supporting documentation that
showed they made pension payments to ANSF pensioners.

In addition, MoI could not account for the $9.9  million in police cooperative17
withholdings from police officers’ salaries from Afghanistan FY 1391 through
FY 1392.           MoI withheld 2.5 percent of police officer salaries for a police
cooperative          association          and       for      the      operation          of      police       cooperative


	16	
     We calculated the $17.4 million amount based on AFMIS FY 1392 ANSF payments for officer and non-commissioned officer
     pay (pension withholdings were only applicable to officer and non-commissioned officer pay).
	17	
     The purpose of the Cooperative is to “provide services, including primary materials, uniforms, cloth, equipment, furniture
     and other required items for police officers and their families at reasonable prices.”




                                                                                                                                  DODIG-2014-102 │ 9
Finding



                 stores.          We requested supporting documentation; however, MoI could not
                 provide         the    documents         for     the     withheld      amounts.           LOTFA         and      CSTC-A
                 independently reviewed the 2.5 percent police cooperative withholdings for
                 FY 1392.          The LOTFA review identified 26 weaknesses in the police cooperative
                 structure. For example, LOTFA reported that the police cooperative had a lack of
                 transparency of funds and poor governance, which could lead to misuse of funds.
                 The CSTC-A review identified that only one store existed out of the 34 cooperative
                 stores MoI stated were operational.                        MoI also provided conflicting information
                 on the number of police cooperative stores.                             A MoI official stated during our
                 exit conference that all 34 stores existed; however, MoI officials previously had
                 informed LOTFA that there were 9 stores in seven provinces and 11 stores in
                 Kabul.         Furthermore, another MoI subject matter expert indicated that only one
                 or two stores actually existed.                   As a result of their reviews, LOTFA and CSTC-A
                 requested that MoI review the police cooperative withholding funds and stores.
                 MoI officials stated they reviewed the funds and stores and, as a result, stopped
                 withholding the police cooperative association amounts from the ANP salary
                 in FY 139318.             MoI officials stated that they stopped withholding because they
                 had       an     abundance         of    funds     for    the     cooperative        association        and      stores.
                 We requested a copy of the MoI review that discussed the findings and
                 recommendations; however, MoI officials stated that they could not provide us
                 with the results because the review was still ongoing.

                 MoF and MoI officials could not support pension and cooperative withholdings
                 because they did not develop processes for or account for withholdings in a
                                                   manner that provided an audit trail for those funds.
                                                          As a result, MoF and MoI could not demonstrate and
                                 MoF
                                                              CSTC-A could not ensure, that MoF and MoI used
                            and MoI could
                           not demonstrate                      pension and police cooperative withholds for their
                        and CSTC-A could not                     intended         purposes.          The       U.S.      Government
                      ensure, that MoF and MoI                    Accountability Office, “Internal Control Management
                       used pension and police
                        cooperative withholds                    and Evaluation Tool,” August 2001 (IC Tool), states
                          for their intended                    that      documentation         of    transactions          and    other
                               purposes.                      significant events should be complete and accurate
                                                           and facilitate tracing the transaction or event and
                                                    related      information        from      authorization           and      initiation,
                 through its processing, to after it is completed.                          The IC Tool further states that
                 documentation should be useful to any individuals involved in evaluating or

                 	18	
                        The Afghan FY 1393 represents the period between December 21, 2013, through December 20, 2014.




10 │ DODIG-2014-102
                                                                                                                                                 Finding



analyzing operations. DoD ASFF funds the associated salaries for these withholdings
and therefore, CSTC-A must hold GIRoA accountable for establishing processes and
properly accounting for the pension and police cooperative withholdings and
providing documentation that supports the use of ASFF direct contributions withheld
for ANSF pensions and police cooperative stores.                                        In addition, MoI should use
the surplus of cooperative funds for the Afghan National and Local Police or return
the funds.


MoD and MoI Weaknesses in Payroll Process
MoD and MoI did not have adequate controls over the payroll process to ensure
that they used ASFF direct contributions as intended and paid ANSF salaries
appropriately. Specifically, the following weaknesses existed:

               •	 MoD and MoI did not provide Afghan National Army or Afghan National
                   Police personnel with written documentation showing their calculated
                   pay.      Personnel received a deposit in their bank account or were paid
                   by a trusted agent,19 but did not receive a pay record that identified the
                   calculated amount of pay to include incentive pay, applicable deductions,
                   and benefits and other entitlements they received.

               •	 MoI did not follow its payroll procedures. Specifically, MoI made manual
                   edits to payroll and payment order forms after the forms had been
                   approved and signed. Performing and processing manual edits after the
                   approval process had occurred circumvented the oversight controls in
                   place. For example, on one payment voucher for approximately $27,846,
                   the fund code charging GIRoA operating funds “10000” was crossed out
                   and the fund code for CSTC-A MoI “10005” was written on the form.

               •	 MoD and MoI did not reconcile payment vouchers submitted to MoF for
                   processing to the bank’s disbursement report to ensure that amounts
                   disbursed for ANSF salaries agreed and were correct.

               •	 MoI did not exercise proper internal controls for Afghan National Police
                   paid by trusted agents.                   According to MoI officials, they were moving
                   toward paying the Afghan National Police through bank accounts;
                   however, they still paid 19 percent of personnel through trusted agents.
                   The trusted agents provided salaries in cash directly to the Afghan

	19	
       A trusted agent is an individual assigned by MoI to physically deliver cash for payroll to a group of Afghan National Police,
       typically in remote regions.




                                                                                                                                       DODIG-2014-102 │ 11
Finding



                            National Police in remote locations.     MoI officials stated that they did
                            not reconcile the amount of cash provided to the trusted agent to
                            any disbursement documents to verify that the amounts provided for
                            payment were properly disbursed.        In addition, a MoI payroll subject
                            matter expert stated that if the Afghan National Police employees
                            were not present the day salaries were disbursed, the salary was not
                            returned to MoI and it was unclear what happens to the funds.

                 These weaknesses exist because MoD and MoI lacked the capacity to develop
                 and implement controls over the payroll process.            For example, GIRoA had
                 developed accounting (AFMIS) and human resources (Afghan Human Resources
                 Information Management System) systems; however, the necessary interfaces were
                 not in place.   In addition, not all personnel had the ability to receive electronic
                 funds transfers.     MoD and MoI had a payroll process in place; however, they
                 need to take additional steps to implement internal controls to mitigate the
                 weaknesses we identified. In addition, CSTC-A must hold MoD and MoI accountable
                 for implementing those controls.      Furthermore, CSTC-A personnel indicated that
                 many of their MoD advisors did not have sufficient experience in the areas they
                 were advising.  For example, many of the MoD financial advisors were from career
                 fields unassociated with finance and accounting. As a result of these weaknesses,
                 the potential for errors, abuse, and wasteful spending existed throughout
                 the entire payroll process.    MoD and MoI need to develop processes to notify
                 ANSF personnel of their entitlements regarding pay and benefits, and MoI needs
                 to eliminate manual edits within their payroll process.         In addition, MoD and
                 MoI should reconcile the salary payment vouchers with a disbursement report
                 from the bank to ensure that amounts for ANSF salaries are correct. MoI should
                 continue their ongoing efforts to reduce and eventually eliminate the use of the trusted
                 agent as a method of payment. CSTC-A, in their advisory role, needs to work with
                 the MoD and MoI to further automate the MoD and MoI payroll processes and use
                 systems available, and develop processes when a system is not in place to improve
                 internal controls.    In addition, CSTC-A needs to ensure the CSTC-A Afghanistan
                 Ministerial Advisors have the experience and expertise necessary to assist GIRoA in
                 developing adequate internal controls.




12 │ DODIG-2014-102
                                                                                                                                       Finding



Potential Improper Payroll Payments
MoI personnel processed monthly payroll payment transactions that appeared
improper20 during FY 1392. We identified 4,579 transactions totaling approximately
$40 million that were potentially improper.                             These potential improper payments
were transactions of amounts that remained unchanged from month to month
despite high attrition during those months.

According to MoI personnel statistic reports, the Afghan National and Local Police
experienced personnel losses, which would make it very unlikely that payroll
would be the same for consecutive months.                                       For example, the September,
October, November, and December 2013 Afghan Local Police payrolls for
Uruzgan province were all the same, including triplicate payments in December.
However, the personnel statistics reports obtained from the MoI General Directorate
of Personnel showed that Uruzgan province lost 66 Afghan Local Police during
that same time. See Table 2 for detail on the Uruzgan province payroll and attrition.

Table 2. Uruzgan Province Payroll and Attrition
                Period                           Salary Amount                       Unplanned Personnel Losses
    September                                       $84,480                                           30
    October                                         $84,480                                           24
    November                                        $84,480                                            9
    December                                        $84,480                                            3
    December                                        $84,480*                                           --
    December                                        $84,480*                                           --
       Totals                                      $506,880                                           66

*      Represents a potential duplicate and triplicate payment

Source: CSTC-A personnel provided Afghan Local Police salary information extracted from AFMIS and
the personnel status reports detailing the unplanned personnel losses information.



The potential improper payments occurred because MoI did not conduct oversight
or develop an approval process to ensure accurate payroll.                                             MoI personnel
indicated that they were unaware that potential improper payments were being
made and did not a have a process in place to identify them. For example, they


	20	
       The provisions of OMB Circular No A-123 pertain to internal controls in Federal agencies, and are not applicable to
       the MOI. Notwithstanding, to provide context for improper payments, according to OMB Circular A-123, Appendix C,
       April 14, 2011, “an improper payment is any payment that should not have been made or that was made in an incorrect
       amount under statutory, contractual, administrative, or other legally applicable requirements.”




                                                                                                                             DODIG-2014-102 │ 13
Finding



                 did not reconcile personnel records to payroll data prior to disbursing employee
                 salaries. The Committee of Sponsoring Organizations of the Treadway Commission
                 “Internal Control−Integrated Framework,” May 2013, states that organizations
                 should implement control activities such as detective controls.         Detective controls
                 are designed to discover an unintended event or result after the initial processing
                 had occurred but before the ultimate objective had been completed.                      MoI
                 did not have controls in place to monitor the attrition levels of the ANSF
                 compared to the payroll expenditures on a monthly basis.                As a result, there
                 was potential for the misuse of funds and no assurance that MoI expended
                 ASFF direct contributions for their intended purposes.             CSTC-A should require
                 the MoI to develop data analytics to reconcile attrition reports with payroll
                 packages to identify improper payments and a process for correcting any
                 improper payments identified.


                 ASFF Direct Contributions Used for Unauthorized
                 Expenditures
                 MoD and MoI used ASFF direct contribution funds for unauthorized expenditures of
                 $82.7 million in FY 1392 for items such as land purchases and for allowances
                 paid to uniformed employees for earning diplomas, licenses, or special skills.
                 Specifically, MoD and MoI spent more than they were authorized for designated
                 budget codes.      In addition, MoD and MoI used ASFF direct contribution funds
                 for budget codes that were not authorized by CSTC-A in the commitment letters.
                 CSTC-A performed a reconciliation in February 2014 comparing MoD and
                 MoI charges with ASFF direct contribution authorized amounts and discovered
                 the incorrect charges.

                 The FY 1392 MoD and MoI commitment letters provided specific funding amounts
                 for designated budget codes for ANSF expenditures, but in some cases the MoD
                 and MoI charged more to those budget codes than allowed.                      For example,
                 according to the FY 1392 MoD Commitment Letter, CSTC-A funded budget
                                     code 21103 “Armed Forces Pay” for approximately $58.1 million.
                                            However, according to AFMIS expenditure data, the MoD
                            MoI and           charged approximately $78.1 million to that budget code,
                           MoD spent           which     resulted   in   MoD       spending    approximately
                         approximately
                       $60.2 million more       $20 million more than was authorized. According to the
                      than was authorized       CSTC-A    reconciliations,   the   MoI   and    MoD    spent
                        for 24 different        approximately $60.2 million more than was authorized
                         budget codes.
                                               for 24 different budget codes.       See Table 3 for details
                                             on budget codes that exceeded their authorization limits.

14 │ DODIG-2014-102
                                                                                                      Finding



Table 3. Over-Authorized Budget Codes (Amounts in Thousands)
                                                                              Over        Over
                                                   Amount     Authorized
 Budget                 Budget Code                                        Authorized   Authorized
                                                from AFMIS      Budget
  Code                  Description                                          Amount      Amount
                                                  (Afghani)    (Afghani)    (Afghani)    (USD)*
  21103   Armed Forces Salary                     4,045,388    3,010,707    1,034,681      $ 19,967
  21137   Pay Parity (Uniformed)                   536,811       186,517      350,294        6,760
  21205   Food For Employees (Uniformed)          5,995,236    5,874,469      120,767        2,331
  22304   Security Services                        460,327       315,728      144,599        2,790
  22400   Repairs and Maintenance - Vehicles       518,858       497,021       21,837          421
          Repairs and Maintenance –
  22401                                              14,509        5,734        8,775          169
          Construction Equip.
          Repairs and Maintenance –
  22405                                              87,373       40,000       47,373          914
          Telecommunications Equip. (MoI)
          Repairs and Maintenance –
  22405                                            234,597       222,743       11,854          229
          Telecommunications Equip. (MoD)
          Repairs and Maintenance – Water
  22409                                              30,704       10,012       20,692          399
          Supply and Canal
          Repairs and Maintenance –
  22413                                               5,347        5,000          347            7
          Workshop and Manuf. Equip.
          Repairs and Maintenance –
  22416                                              29,730       13,905       15,825          305
          Buildings (MoI)
          Repairs and Maintenance –
  22416                                           2,922,007    2,200,165      721,842       13,930
          Buildings (MoD)
  22603   Fuel – Domestic                          968,178       549,742      418,436        8,075
  22702   Household and Kitchen                      10,150        2,262        7,888          152
          Educational and Recreational
  22703                                            130,747       130,657           90            2
          Materials
  22705   Clothing                                 481,949       468,516       13,433          259
  22708   Agriculture                                 6,268        3,627        2,641           51
  25104   Improvements to Buildings                161,695        63,324       98,371        1,898
          Acquisition of Other Structures
  25110                                            212,284       203,000        9,284          179
          (MoI)
          Acquisition of Other Structures
  25110                                              54,839       25,790       29,049          561
          (MoD)
          Broadcasting Equip. (Radio, TV, and
  25204                                               5,034        2,332        2,702           52
          Press)
  25205   Energy Generating Equip.                   22,370       22,024          346            7




                                                                                          DODIG-2014-102 │ 15
Finding



                                                                                                          Over          Over
                                                                         Amount       Authorized
                      Budget              Budget Code                                                  Authorized     Authorized
                                                                      from AFMIS        Budget
                       Code               Description                                                    Amount        Amount
                                                                        (Afghani)      (Afghani)        (Afghani)      (USD)*
                      25208    Office and Computing Equip.                 492,358        460,095            32,263          623
                               Workshop and Manufacturing
                      25213                                                 98,437         90,685             7,752          150
                               Equip.
                      Total                                            17,525,196      14,404,055       3,121,141        $ 60,231

                 *     The audit team calculated the USD amount by multiplying the over-authorized amount in
                       afghani by the specified exchange rate of 51.82 afghani for every U.S. dollar from the 1392
                       Commitment Letter.

                 Source: The audit team generated this table by consolidating information provided from CSTC-A’s
                 reconciliation of charges made by MoD and MoI to FY 1392 ASFF direct contributions.



                 In addition, MoD and MoI personnel spent ASFF direct contribution funds for
                 items they were not authorized by the commitment letters to spend. For example,
                 according to the CSTC-A reconciliation, MoI personnel spent approximately
                                          $1.3 million of ASFF direct contributions to budget code
                                                  account     21131,      for   allowances      paid    to    uniformed
                                                      employees because they attained a diploma, license,
                               MoD and
                                                         or other special skill. However, the MoI commitment
                            MoI personnel
                           spent ASFF direct              letter did not authorize funding for budget code
                        contribution funds for            21131.      According to the CSTC-A reconciliations,
                         items they were not
                                                          MoD and MoI spent approximately $22.4 million
                           authorized by the
                         commitment letters               of ASFF direct contributions on 47 different budget
                               to spend.                codes that were not authorized in the commitment
                                                      letters. See Appendix B for details on the total amount
                                                of charges to unauthorized budget codes.

                 MoD and MoI were able to overspend authorized budget codes and charge
                 unauthorized budget codes because they did not have an adequate funds certification
                 process that ensured funds were available before they were spent.                           Specifically,
                 MoD and MoI did not check the budget authority at the detailed level or five-digit
                 budget code before they approved the payment vouchers.                       Instead, MoD and MoI
                 personnel checked the summary-level account or three-digit budget code, which
                 did not show whether a fund was authorized or had adequate funds. For example,
                 CSTC-A authorized specific budget codes, such as code 21135 “Afghan Local Police
                 Salary,” under the 211 “Wages and Salaries In Cash” summary code.                              However,




16 │ DODIG-2014-102
                                                                                                Finding



when a payment voucher was submitted for an unauthorized budget code, for
example 21110 “Contractors,” the funds certifier only checks for funds availability in
the higher 211 code for approval. In addition, the AFMIS system did not prevent
unauthorized budget codes from being entered when ASFF direct contribution
funds were used.     For example, when the CSTC-A fund code “10005” was used,
any five-digit budget code could be entered and processed through the system
if the funds certifier and payment certifier have approved the transaction.
AFMIS did not contain a data check that would reject ASFF direct contributions from
being charged to unauthorized budget codes. In addition, CSTC-A did not require that
GIRoA repay ASFF direct contribution funds that were improperly spent.

As a result, MoD and MoI did not use $82.7 million of ASFF direct contributions
for their intended purposes. In addition, if MoD and MoI continue to spend ASFF
direct contributions on unauthorized expenditures they may not be able to pay
ANSF salaries supported by ASFF direct contributions.           MoD and MoI should
correct the funds certification process and configure AFMIS to reject ineligible
budget codes to ensure ASFF direct contributions are used for the purposes outlined
in the commitment letters. In addition, CSTC-A must withhold future ASFF direct
contributions to offset any prior funding it determines to be used inappropriately.


Conclusion
GIRoA lacked the basic controls to provide reasonable assurance that it
appropriately spent $3.3 billion of ASFF direct contributions. CSTC-A must ensure
that GIRoA improves its internal controls over its operations and reporting functions
to provide better transparency and accountability over ASFF direct contributions.
As a result of GIRoA’s internal control weaknesses, CSTC-A cannot verify that
the ASFF direct contributions were properly spent or used for their intended
purposes. The $13 billion in additional direct contributions DoD plans to provide
to the ASFF between FY 2015 and FY 2019 may be subjected to potential wasteful
spending and abuse.      CSTC-A needs to hold GIRoA accountable for improving
the transparency and accountability of direct contributions to assure DoD
and the international community that the ASFF direct contributions were used
for their intended purposes.




                                                                                      DODIG-2014-102 │ 17
Finding



                 Recommendations, Management Comments, and
                 Our Response                       21



                 Recommendation 1
                 We recommend that the Commander, Combined Security Transition Command-
                 Afghanistan:

                              a.	 Include requirements in the commitment letters that Afghanistan Security
                                    Forces Fund direct contributions be accounted for in separate treasury
                                    accounts and provide the Combined Security Transition Command-
                                    Afghanistan the bank statements from the Ministry of Finance showing the
                                    cash balances.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, agreed, and stated CSTC-A will include language in the
                 FY 1394 Commitment Letter with the MoI and MoD requiring the MoF to account
                 for ASFF direct contributions in a separate treasury account.                                             He also stated
                 the Commitment Letter will require the MoF to provide CSTC-A with monthly
                 bank statements displaying the balances of the accounts.                                          CSTC-A will prepare
                 the FY 1394 Commitment Letter by December 20, 2014.


                 Our Response
                 Comments             from       the     Commander,            CSTC-A,        addressed         all     specifics      of     the
                 recommendation, and no further comments are required.

                              b.	 Coordinate with the Defense Finance and Accounting Service to issue
                                    all Afghanistan Security Forces Fund direct contributions payments to
                                    the Afghanistan Ministry of Finance in afghani.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, agreed, and stated CSTC-A will coordinate with DFAS to
                 issue all ASFF direct contribution payments to the MoF in afghani. He also stated
                 CSTC-A will coordinate with MoF to establish a bank account with an Afghan
                 bank to receive the disbursement in afghani.                                   CSTC-A anticipates issuing ASFF
                 direct contributions in afghanis by December 31, 2014.

                 	21	
                        We determined whether GIRoA had internal controls in place to ensure a transparent and accountable process for ASFF
                        direct contributions. However, we did not have the authority to make recommendations to a foreign nation. Therefore, we
                        are making recommendations to CSTC-A, in its advisory role, to require GIRoA to improve its internal controls for processes
                        supported by ASFF direct contributions.




18 │ DODIG-2014-102
                                                                                                    Finding



Our Response
Comments        from   the   Commander,    CSTC-A,   addressed   all   specifics   of   the
recommendation, and no further comments are required.

       c.	 Provide the Government of Islamic Republic of Afghanistan with
           adequately trained Combined Security Transition Command-Afghanistan
           Ministerial Advisors who have substantial experience and expertise in
           the advisory areas that they are assigned.

Combined Security Transition Command-Afghanistan Comments
The Commander, CSTC-A, agreed, stating that he recognizes the importance of
an adequately trained advisory cadre. He stated the command has made significant
changes in qualification requirements for incoming Ministerial Advisors.           He also
stated the revised qualifications require experience and expertise specific to their
advisory area, as well as a Bachelor’s degree or Master’s degree depending upon
their rank. The Commander, CSTC-A, stated this recommendation was implemented
in July 2014.


Our Response
Comments        from   the   Commander,    CSTC-A,   addressed   all   specifics   of   the
recommendation, and no further comments are required.

       d.	 Withhold future funding of Afghanistan Security Forces Fund direct
           contributions for any contributions the Combined Security Transition
           Command-Afghanistan determines were inappropriately spent.                    In
           addition, if the Commander decides not to withhold funding, the reason
           supporting the decision should be documented.

Combined Security Transition Command-Afghanistan Comments
The Commander, CSTC-A, agreed, stating CSTC-A will withhold inappropriately
spent contributions, and if the Commander decides not to withhold funding, document
the reason.      The Commander stated that CSTC-A uses withholding of funds as
leverage to ensure the Afghans are responsive to audit findings and recommendations
from their internal Audit Division.       He stated they recoup current- or prior-year
funds identified as inappropriately spent during audits.     In October 2014, CSTC-A
will re-coup $1.6 million for inappropriately spent ASFF direct contributions.
He also stated the FY 1394 Commitment Letter as well as the LOTFA Memorandum
of Agreement will update language requiring formal comments to any audit findings




                                                                                          DODIG-2014-102 │ 19
Finding



                 and inspection discrepancies no later than 30 days after receipt. The Commander
                 stated this update will strengthen the requirement to provide formal comments to
                 audit findings and inspection discrepancies.        CSTC-A has implemented control
                 measures, such as reducing funds, until comments are received and recommendations
                 are implemented. CSTC-A will prepare the FY 1394 Commitment Letter by
                 December 20, 2014.


                 Our Response
                 Comments from the Commander, CSTC-A, addressed all specifics of the recommendation,
                 and no further comments are required.

                        e.	 Require the Government of Islamic Republic of Afghanistan to:

                            1)	   Provide pension and cooperative police association account balances
                                  for amounts previously withheld.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, agreed, stating GIRoA provided account balances for
                 the pension and cooperative police association accounts for FY 1392 and for the
                 8-month period of FY 1393. He stated that, in FY 1392, the MoD and MoI had a
                 combined pension account balance of $27,671,556.            He also stated for the
                 8-month period of FY 1393, the combined account balance is $17,116,963.

                 The Commander, CSTC-A, stated the cooperative police association had two bank
                 accounts and an outstanding loan as of July 2014. He stated the New Kabul Bank
                 account had a zero balance, and the National Bank of Afghanistan had a balance of
                 $51,207. CSTC-A stated the outstanding loan amount was $1,371,762.


                 Our Response
                 Comments    from     the   Commander,   CSTC-A,     addressed   all   specifics   of   the
                 recommendation, and no further comments are required.

                            2)	   Develop processes that provide an audit trail of pension and
                                  cooperative police association withholdings.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, agreed, stating GIRoA collects all employee pensions
                 through payroll withholdings. He stated the MoF records the withholdings against
                 a liability account when it processes the payroll M-16A Payroll Payment Order.



20 │ DODIG-2014-102
                                                                                                 Finding



A two-digit code is assigned to each ministry to identify its financial transactions.
The Commander stated CSTC-A will include a requirement in the FY 1394
Commitment Letter requiring MoF to provide a monthly report for the pension fund
code using the code assigned to MoI and MoD. He stated the Minister of Interior
issued a decree in December 2013 discontinuing the 2.5 percent cooperative
police association tax.   CSTC-A anticipates completion of controls to discontinue
cooperative police association tax withholdings by September 2014, and will prepare
the FY 1394 Commitment Letter by December 20, 2014.


Our Response
Comments    from    the   Commander,    CSTC-A,   addressed   all   specifics   of   the
recommendation, and no further comments are required.

           3)	   Use the abundance of cooperative funds for the Afghan National and
                 Local Police or return the funds to the cooperative members from
                 which they were withheld.

Combined Security Transition Command-Afghanistan Comments
The Commander, CSTC-A, agreed, stating LOTFA will return cooperative funds
collected from Afghan National Police during the period January through
March 2014; however, no action is planned for funds collected before January 2014.
He stated LOTFA will return the funds by December 31, 2014.


Our Response
Comments    from    the   Commander,    CSTC-A,   addressed   all   specifics   of   the
recommendation, and no further comments are required.

           4)	   Implement data checks within the Afghanistan Financial Management
                 Information System to disallow Afghanistan Security Forces Fund
                 direct contributions from being used on unauthorized budget codes.

Combined Security Transition Command-Afghanistan Comments
The Commander, CSTC-A, agreed, stating he will coordinate with MoF to establish
controls in AFMIS disallowing payment when expenditures exceed authorized budget
codes. He will also include language in the FY 1394 Commitment Letter requiring
MoF to implement the controls.      CSTC-A will prepare the FY 1394 Commitment
Letter by December 20, 2014.




                                                                                       DODIG-2014-102 │ 21
Finding



                 Our Response
                 Comments     from    the   Commander,       CSTC-A,   addressed   all   specifics   of   the
                 recommendation, and no further comments are required.

                             5)	   Perform funds availability and certification at the detailed level, or
                                   five-digit code, before expending Afghanistan Security Forces Fund
                                   direct contributions.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, agreed, stating the AFMIS Purchasing Module is used
                 to award contracts and has the capability to perform fund availability and
                 certification. He stated CSTC-A will include language in the FY 1394 Commitment
                 Letter requiring MoD and Mol to use the Purchasing Module of AFMIS.                 He also
                 stated CSTC-A will disallow any contracts awarded and paid with ASFF Direct
                 Contributions outside of the module. CSTC-A will prepare the FY 1394 Commitment
                 Letter by December 20, 2014.


                 Our Response
                 Comments     from    the   Commander,       CSTC-A,   addressed   all   specifics   of   the
                 recommendation, and no further comments are required.

                        f.	 Require the Ministries of Defense and Interior to:

                             1)	   Develop a process to provide a statement of pay and benefits
                                   information to all Afghanistan government employees paid with
                                   Afghanistan Security Forces Fund direct contributions.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, partially agreed, stating the Electronic Pay System is
                 able to produce a payroll ledger; however, challenges remain in the areas of
                 printing, distribution, and literacy.       He stated printers and supplies are not
                 available at all levels.   He also stated logistical issues exist with distributing the
                 pay statements to each employee.          He stated CSTC-A will develop pay charts for
                 display in Mol and MoD facilities and have them completed by October 31, 2014.
                 The Commander stated that CSTC-A will work with both ministries to develop
                 a pay statement for all employees.




22 │ DODIG-2014-102
                                                                                                     Finding



Our Response
Comments    from    the   Commander,     CSTC-A,   addressed    all   specifics     of   the
recommendation, and no further comments are required.

           2)	   Automate their payroll processes and eliminate manual edits after
                 payroll documents have been approved.

Combined Security Transition Command-Afghanistan Comments
The Commander, CSTC-A, agreed, stating CSCT-A is assisting MoD with developing
an automated payroll system. He stated MoI is working with LOTFA to automate
and eliminate manual edits to the payroll process including an electronic payment
order, and replacing the Electronic Pay System with a web-based system.                  The
Commander stated CSTC-A will make automated payroll processing a requirement
in the FY 1394 Commitment Letter.        CSTC-A will prepare the Commitment Letter
by December 20, 2014.

The Commander stated if GIRoA is unable to implement the automated systems
by December 20, 2014, CSTC-A will require an implementation plan that will include
a timeline that provides dates and percentages completed to show progression.


Our Response
Comments    from    the   Commander,     CSTC-A,   addressed    all   specifics     of   the
recommendation, and no further comments are required.

           3)	   Reconcile monthly payroll submission totals to summary totals
                 of disbursements from the bank and investigate and resolve any
                 unreconciled amounts.

Combined Security Transition Command-Afghanistan Comments
The   Commander,    CSTC-A,   agreed,    stating   MoF   currently    provides     monthly
reconciliations to the MoD and Mol for review.           He stated the ministries will
immediately take steps to reduce unreconciled charges and payments.               He stated
CSTC-A will include language in the FY 1394 Commitment Letter requiring the
ministries to conduct the monthly reconciliations.          CSTC-A will prepare the
Commitment Letter by December 20, 2014.




                                                                                           DODIG-2014-102 │ 23
Finding



                 Our Response
                 Comments    from     the   Commander,        CSTC-A,   addressed   all   specifics   of   the
                 recommendation, and no further comments are required.

                        g.	 Require the Ministry of Interior to:

                            1)	   Continue their ongoing efforts to reduce and eliminate the use of
                                  “trusted agent” payroll payments using Afghanistan Security Forces
                                  Fund direct contributions and provide a date when they expect to
                                  complete this initiative.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, agreed, stating LOTFA and MoI are evaluating proposals
                 from a vendor specializing in mobile payment systems and from the Azizi bank
                 to eliminate the trusted agent. He stated the transition will require collaboration
                 with Afghan banks to establish a banking infrastructure to reach Afghan National
                 Police in remote locations. He stated LOTFA anticipates completion of the transition
                 by December 31, 2014.


                 Our Response
                 Comments    from     the   Commander,        CSTC-A,   addressed   all   specifics   of   the
                 recommendation, and no further comments are required.

                            2)	   Develop data analytics to reconcile attrition reports with payroll
                                  packages to identify improper payments and a process for correcting
                                  any improper payments identified.

                 Combined Security Transition Command-Afghanistan Comments
                 The Commander, CSTC-A, agreed, stating CSTC-A will coordinate with MoI subject
                 matter experts to obtain copies of deceased and departing employee listings. He stated
                 these listings will be reconciled against the Electronic Pay Systems and Web-Based
                 Electronic Pay System payroll listings to determine if MoI made any unauthorized
                 payments. He also stated efforts are underway to train the Afghan subject matter
                 experts employed at MoI to perform these reviews to provide continuity after the
                 coalition departs.   Effective August 2014, CSTC-A’s Financial Management Office
                 will hold a twice-monthly ANSF Payroll Execution meeting, at which Financial
                 Management Office analysts, advisors, and Human Resources policy subject matter




24 │ DODIG-2014-102
                                                                                                Finding



experts will review current payroll execution, payroll projections, and payroll
anomalies.   The Commander stated that CSTC-A will also add language to the
FY 1394 Commitment Letter stating funding will not be provided, or allocated
as compensation, to families of martyrs. CSTC-A will prepare the Commitment Letter
by December 20, 2014.


Our Response
Comments     from   the   Commander,   CSTC-A,   addressed   all   specifics   of   the
recommendation, and no further comments are required.




                                                                                      DODIG-2014-102 │ 25
Appendixes




                 Appendix A
                 Scope and Methodology
                 We conducted this performance audit from December 2013 through July 2014
                 in accordance with generally accepted government auditing standards.               Those
                 standards require that we plan and perform the audit to obtain sufficient,
                 appropriate evidence to provide a reasonable basis for our findings and conclusions
                 based on our audit objectives.      We believe that the evidence obtained provides a
                 reasonable basis for our findings and conclusions based on our audit objectives.

                 We reviewed the internal controls implemented at Afghanistan’s MoD and MoI
                 for the ASFF direct funding provided for the sustainment of the ANSF.         We also
                 reviewed the flow of ASFF direct contributions from DoD to GIRoA through the
                 DAB and MoF. In addition, we reviewed pension account balances and the payroll
                 process at MoD and MoI for providing salaries to the Afghan National Army and
                 Afghan National Police employees.

                 We conducted site visits to the International Security Assistance Forces Headquarters,
                 MoD, MoI, MoF, DAB, and LOTFA in Kabul, Afghanistan.

                         •	 We interviewed officials from the U.S. Treasury, MoF, DAB, LOTFA, and
                            CSTC-A, to discuss the flow of ASFF direct contributions from the United
                            States to GIRoA and to gain an understanding of the ANSF pension
                            process.   Specifically, we interviewed DAB and MoF officials to identify
                            possible internal control weaknesses for the direct funding provided
                            for the continued sustainment of the MoD and MoI.             We reviewed
                            documents for the ASFF direct contribution account deposits, balances,
                            and transfers between the DAB and the MoF to gain an understanding of
                            the process and how ASFF funds for MoD and MoI were used.                 We
                            also reviewed the withholdings, contributions, transfers, and balances
                            of ANSF pensions.        We analyzed AFMIS expenditure data, reviewed
                            ANSF pension guidance, and examined examples of payment vouchers
                            for pension contribution withholdings.

                         •	 We interviewed officials from CSTC-A Financial Management Oversight
                            office, CSTC-A ministerial development advisors, MoD, and MoI personnel
                            to gain an understanding of the Afghan National Army and Afghan
                            National Police payroll processes, the internal controls in place over




26 │ DODIG-2014-102
                                                                                              Appendixes



            the payroll process, and current weaknesses in the payroll process. We
            interviewed officials from the LOTFA to gain an understanding of how
            they interact with MoI and manage the fund.

          •	 We obtained documentation supporting the ANSF payroll process from
            CSTC-A, MoD, and MoI to identify potential weaknesses throughout
            the process.      In addition, we examined AFMIS FY 1392 payroll
            expenditure data from LOTFA and ASFF direct contributions and reviewed
            provincial attrition reports to identify potential improper payments.
            We also obtained and reviewed the CSTC-A’s MoD and MoI FY 1392 ASFF
            direct contributions reconciliations to identify ineligible expenses.


Use of Computer-Processed Data
We used computer-processed data to perform this audit.              Specifically, we used
data from the AFMIS to perform analysis of pension contributions, obtain account
balances, and calculate Police Cooperative Association withholdings. We also used
data from AFMIS to report on over-spent and unauthorized budget code charges
and examined expenditure data for FY 1392.          However, the data we used was of
undetermined reliability because it originated in an information system of a foreign
nation.   We did not have the ability or authority to perform reliability testing of
data extracted from AFMIS. However, the reliability of the data did not affect our
findings or conclusion that GIRoA lacked the basic controls to provide reasonable
assurance that GIRoA appropriately spent $3.3 billion of ASFF direct contributions.


Use of Technical Assistance
We used Afghanistan interpreters to translate during interviews with Afghanistan
officials and to convert supporting documentation received in Dari that required
conversion to English.      CSTC-A ministerial development advisors provided the
interpreters who accompanied the audit team to visits held at the MoD, MoI, MoF,
and DAB sites.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the
Department of Defense Inspector General (DoD IG), and the Special Inspector General
for Afghanistan Reconstruction (SIGAR), issued 8 reports related to the audit objective.
Unrestricted GAO reports can be accessed at http://www.gao.gov.               Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm?office=Audit.
Unrestricted SIGAR reports can be accessed at www.sigar.mil/audits/reports.html.


                                                                                         DODIG-2014-102 │ 27
Appendixes



                 GAO
                 GAO-12-951T, “Afghanistan Security, Long-standing Challenges May Affect Progress
                 and Sustainment of Afghan National Security Forces,” July 24, 2012

                 GAO-11-907, “Afghanistan Governance, Performance-Data Gaps Hinder Overall
                 Assessment of U.S. Efforts to Build Financial Management Capacity,” September 2011


                 DoD IG
                 DODIG-2013-005, “Performance Framework and Better Management of Resources
                 Needed for the Ministry of Defense Advisors Program,” October 23, 2012

                 DODIG-2012-058, “Distribution of Funds and Mentoring of Finance Officers for the
                 Afghanistan National Army Payroll Need Improvement,” February 29, 2012


                 SIGAR
                 SIGAR Audit 14-32, “Direct Assistance: USAID Has Taken Positive Action to
                 Assess Afghan Ministries’ Ability to Manage Donor Funds, but Concerns Remain,”
                 January 2014

                 SIGAR Special Project 14-12, “Comprehensive Risk Assessments of MOD and MOI
                 Financial Management Capacity Could Improve Oversight of Over $4 Billion in
                 Direct Assistance Funding,” November 2013

                 SIGAR Audit 13-15, “Afghanistan Public Protection Force: Concerns Remain about
                 Force’s Capabilities and Costs,” July 2013

                 SIGAR Audit 13-1, “Afghan National Security Forces Facilities: Concerns with Funding,
                 Oversight, and Sustainability for Operation and Maintenance,” October 2012




28 │ DODIG-2014-102
                                                                                            Appendixes




Appendix B
MoD and MoI Unauthorized Budget Code Charges
(Amounts in Thousands)
                                                   Amount       Total        Total
 Budget          Budget Code Description        from AFMIS    Ineligible   Ineligible
  Code                                            (Afghani)   (Afghani)     (USD)*
 21100    Civilian Employees (Permanent)            2,032         2,032          39
 21101    Civilian Employees (Workers)              6,653         6,653         128
 21102    Military Officers                        48,165        48,165         929
 21103    Armed Forces                            760,828      760,828      14,682
 21110    Contractors                                 542           542          10
 21121    Professional and Cadre Allowance            137           137           3
 21122    Interim Additional Allowance              1,609         1,609          31
 21123    Other Allowances – Cash                   5,320         5,320         103
 21124    Overtime                                    516           516          10
 21125    Hazard or Regional Pay                    8,179         8,179         158
 21127    Food Allowance                            9,824         9,824         190
 21128    Not Elsewhere Classified                  6,790         6,790         131
          Professional and Cadre Allowance
 21131                                             66,093        66,093       1,275
          (Uniformed) (MoI)
          Professional and Cadre Allowance
 21131                                                  6             6            -
          (Uniformed) (MoD)
 21132    Hazard or Regional Pay (Uniformed)       34,337        34,337         663
 21136    Temporary Pay Increases (Uniformed)           9             9            -
 21205    Food for Employees (Uniformed)           89,015        89,015       1,718
 21300    Wages and Salary Advance                    154           154           3
 21400    Assistance Payments to Employees         12,396        12,396         239
 21401    Severance Pay                                11            11            -
 21403    Family Payment on Death (MoI)             3,000         3,000          58
 21403    Family Payment on Death (MoD)               100           100           2
          Special Duty and Other Incentives
 21650                                              1,010         1,010          19
          (Uniformed)
 22103    Travel – International                   16,364        16,364         316
          Allowance – Domestic (Uniformed
 22104                                                722           722          14
          Staff)
 22105    Travel Advances                           6,904         6,904         133
 22202                                                450           450           9
 22305    Freight and Handling                      4,103         4,103          79


                                                                                       DODIG-2014-102 │ 29
Appendixes



                                                                             Amount          Total           Total
                      Budget            Budget Code Description           from AFMIS       Ineligible      Ineligible
                       Code                                                 (Afghani)      (Afghani)        (USD)*
                                Repairs and Maintenance – Transport
                      22402                                                    1,150           1,150               22
                                Equip.
                                Repairs and Maintenance – Agricultural
                      22407                                                      100             100                2
                                Equip.
                                Repairs and Maintenance – Military
                      22410                                                      900             900               17
                                Equipment
                      22415     Repairs and Maintenance – Dwellings              490             490                9
                      22418     (MoI)                                         13,208          13,208               255
                      22418     (MoD)                                          2,721           2,721               53
                      22504     Postage                                          251             251                5
                      22509     Utilities Advances                             1,998           1,998               39
                      22703     Educations and Recreational Materials            299             299                6
                      22711     Gifts                                            296             296                6
                      22901     Goods and Services Advances (MoI)              3,315           3,315               64
                      22901     Goods and Services Advances (MoD)              3,337           3,337               64
                      25101     Improvements to Dwellings                      7,614           7,614               147
                      25102     Construction of Dwellings                     17,045          17,045               329
                      25103     Purchase of Buildings                         22,024          22,024               425
                      25200     Vehicles                                         325             325                6
                      25202     Transportation Equip.                          1,947           1,947               38
                      25800     Purchase of Land                                 355             355                7
                      25900     Capital Advance Expenditures                     490             490                9
                      Total                                                1,163,134       1,163,134         22,445

                 *    The USD amount was calculated by multiplying the over-authorized amount in afghani by the
                      specified exchange rate of 51.82 afghani for every U.S. dollar from the FY 1392 Commitment
                      Letter.

                 Source: The audit team generated this table by consolidating information provided from CSTC-A’s
                 reconciliation of charges made by MoD and MoI to FY 1392 ASFF direct contributions.




30 │ DODIG-2014-102
                                             Management Comments




Management Comments
Combined Security Transition Command-Afghanistan




                                                   DODIG-2014-102 │ 31
Management Comments



                  Combined Security Transition Command-Afghanistan (cont’d)




32 │ DODIG-2014-102
                                              Management Comments



Combined Security Transition Command-Afghanistan (cont’d)




                                                    DODIG-2014-102 │ 33
Management Comments



                  Combined Security Transition Command-Afghanistan (cont’d)




34 │ DODIG-2014-102
                                              Management Comments



Combined Security Transition Command-Afghanistan (cont’d)




                                                    DODIG-2014-102 │ 35
Management Comments



                  Combined Security Transition Command-Afghanistan (cont’d)




36 │ DODIG-2014-102
                                                                                Acronyms and Abbreviations




Acronyms and Abbreviations
        AFMIS Afghanistan Financial Management Information System
         ANSF Afghan National Security Force
         ASFF Afghanistan Security Forces Fund
       CSTC-A Combined Security Transition Command-Afghanistan
          DAB Da Afghanistan Bank
        GIRoA Government of Islamic Republic of Afghanistan
        LOTFA Law and Order Trust Fund for Afghanistan
         MoD Ministry of Defense
          MoF Ministry of Finance
          MoI Ministry of Interior
 OUSD(C)/CFO Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
          TSA Treasury Single Account




                                                                                              DODIG-2014-102 │ 37
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
